                          Federal Register / Vol. 67, No. 109 / Thursday, June 6, 2002 / Notices                               39015

expenses other than local mileage for        DEPARTMENT OF HEALTH AND                        Place: Crowne Plaza Hotel, 14th and K
local participants; (11) organization        HUMAN SERVICES                               Streets, NW., Washington, DC 20005, (202)
dues; (12) honoraria or other payments                                                    682–0111.
                                             Health Resources and Services                   The meeting is open to the public.
for the purpose of conferring distinction                                                    Purpose: The Committee provides advice
or communicating respect, esteem, or         Administration
                                                                                          and recommendations to the Secretary of
admiration; (13) patient care; (14)          Availability of Funds; Correction            Health and Human Services on the following:
alterations or renovations; and (15)                                                      Department programs which are directed at
indirect costs.                              AGENCY: Health Resources and Services        reducing infant mortality and improving the
                                             Administration, HHS.                         health status of pregnant women and infants;
   Grant funds may not be used to                                                         factors affecting the continuum of care with
provide general support for                  ACTION: Correction and extension of
                                                                                          respect to maternal and child health care,
international scientific conferences held    time for application deadline.               including outcomes following childbirth;
outside the United States or Canada.         SUMMARY: This notice corrects an             factors determining the length of hospital
Grant funds may be awarded to a U.S.         Internet address for accessing               stay following childbirth; strategies to
component of an international                                                             coordinate the variety of Federal, State, and
                                             application materials and extends the        local and private programs and efforts that
organization to provide limited support      time that applications will be accepted      are designed to deal with the health and
for specified segments of an                 for fiscal year 2002 competitive             social problems impacting on infant
international conference held outside        Cooperative Agreements for Health            mortality; and the implementation of the
the United States or Canada if the           Workforce research that was published        Healthy Start initiative and infant mortality
conference is compatible with FDA’s          in the Federal Register on Thursday,         objectives from Healthy People 2010.
mission. An example of such support          May 23, 2002 (67 FR 36198) [FR Doc.             Agenda: Topics that will be discussed
would be a selected symposium, panel,        02–12928]. That notice announced that        include the following: Early Postpartum
                                             applications must be received by mail or     Discharge; Low-Birth Weight; Disparities in
or workshop within the conference,                                                        Infant Mortality; and the Healthy Start
including the cost of planning and the       delivered to the HRSA Grants
                                                                                          Program.
cost of travel for U.S. participants for     Application Center by no later than June        Anyone requiring information regarding
the specified segment of the scientific      19, 2002. The deadline for applications      the Committee should contact Peter C. van
conference. Any Public Health Service        has been extended and applications           Dyck, M.D., M.P.H., Executive Secretary,
(PHS) foreign travel restrictions that are   must be received by mail or delivered to     ACIM, Health Resources and Services
in effect at the time of the award must      the HRSA Grants Application Center,          Administration (HRSA), Room 18–05,
                                             901 Russell Avenue, Suite 450,               Parklawn Building, 5600 Fishers Lane,
be followed, including but not limited                                                    Rockville, MD 20857, telephone: (301) 443–
                                             Gaithersburg Maryland, 20879, by no
to:                                                                                       2170.
                                             later than July 8, 2002. Additionally, the
   1. Limitations or restrictions on         Internet address given in the above             Individuals who are interested in attending
countries to which travel will be            referenced Federal Register notice for       any portion of the meeting or who have
                                                                                          questions regarding the meeting should
supported; or                                accessing application materials was          contact Ms. Kerry P. Nesseler, HRSA,
   2. Budgetary or other limitations on      incorrect. The correct Internet address      Maternal and Child Health Bureau,
availability of funds for foreign travel.    for accessing application materials is       telephone: (301) 443–2170.
                                             hrsagac@hrsa.gov.                               Agenda items are subject to change as
   The collection of information                                                          priorities are further determined.
requested in PHS Form 398 and its            FOR FURTHER INFORMATION CONTACT:
instructions have been submitted by          Sarah Richards (phone 301–443–5452 or          Dated: May 31, 2002.
PHS to the Office of Management and          via e-mail at srichards@hrsa.gov) or         Jane M. Harrison,
                                             Louis Kuta (phone 301–443–6634 or via        Director, Division of Policy Review and
Budget (OMB) and were approved and
                                             e-mail at lkuta@hrsa.gov).                   Coordination.
assigned OMB control number 0925–
0001. Information collection                   Dated: May 31, 2002.                       [FR Doc. 02–14171 Filed 6–5–02; 8:45 am]
requirements requested on PHS Form           Jane M. Harrison,                            BILLING CODE 4165–01–P

5161–1 were approved and issued under        Director, Division of Policy Review and
OMB Circular A–102.                          Coordination.
                                             [FR Doc. 02–14170 Filed 6–5–02; 8:45 am]     DEPARTMENT OF HEALTH AND
C. Legend                                    BILLING CODE 4165–15–P                       HUMAN SERVICES
   Unless disclosure is required by the                                                   Office of Inspector General
Freedom of Information Act as amended        DEPARTMENT OF HEALTH AND
(5 U.S.C. 552) as determined by the                                                       Draft OIG Compliance Program
                                             HUMAN SERVICES
freedom of information officials of                                                       Guidance for Ambulance Suppliers
DHHS or by a court, data contained in        Health Resources and Services                AGENCY: Office of Inspector General
the portions of this application that        Administration                               (OIG), HHS.
have been specifically identified by
                                             Advisory Committee; Notice of Meeting        ACTION: Notice and comment period.
page number, paragraph, etc., by the
applicant as containing restricted             In accordance with section 10(a)(2) of     SUMMARY:   This Federal Register notice
information shall not be used or             the Federal Advisory Committee Act           seeks the comments of interested parties
disclosed except for evaluation              (Public Law 92–463), announcement is         on draft compliance program guidance
purposes.                                    made of the following National               (CPG) developed by the Office of
  Dated: May 31, 2002.                       Advisory body scheduled to meet              Inspector General (OIG) for the
                                             during the month of July 2002.               ambulance industry. Through this
Margaret M. Dotzel,
                                               Name: Advisory Committee on Infant         notice, the OIG is setting forth its
Associate Commissioner for Policy.
                                                       general views on the value and
                                             Mortality (ACIM).
[FR Doc. 02–14101 Filed 6–4–02; 8:45 am]
      Date and Time: July 10, 2002; 9 a.m.–5     fundamental principles of ambulance
BILLING CODE 4160–01–S                       p.m., July 11, 2002; 8:30 a.m.–3 p.m.        industry CPG, and the specific elements
39016                           Federal Register / Vol. 67, No. 109 / Thursday, June 6, 2002 / Notices

that ambulance providers/suppliers                 abuse; and (3) develop corrective                        • Section III of this document
should consider when developing a CPG              actions when those risks or instances of               discusses various fraud and abuse and
initiative.                                        fraud and abuse are identified.                        compliance risks associated with
DATES: To ensure consideration,                                                                           ambulance services covered under the
                                                   Public Input and Comment in
comments must be delivered to the                                                                         Medicare program;
                                                   Developing Final CPG                                     • Section IV briefly summarizes
address provided below by no later than
5 p.m. on July 22, 2002.                             In response to our earlier solicitation              compliance risks related to Medicaid
                                                   notice, the OIG received 37 comments                   coverage for transportation services; and
ADDRESSES: Please mail or deliver
                                                   from various organizations and                           • Section V discusses various risks
written comments to the following                                                                         the ambulance industry faces under the
address: Office of Inspector General,              associations. In developing this notice
                                                   for formal public comment, we have                     anti-kickback statute. The Appendix
Department of Health and Human                                                                            provides relevant statutory and
Services, Attention: OIG–415–CPG,                  considered those specific comments as
                                                   well as previous OIG issuances, such as                regulatory citations as well as brief
Room 5246, Cohen Building, 330                                                                            discussions of additional potential risk
Independence Avenue, SW.,                          OIG-issued Advisory Opinions, and
                                                   have consulted with the Centers for                    areas to consider when developing a
Washington, DC 20201.                                                                                     compliance program.
  We do not accept comments by                     Medicare and Medicaid Services and
                                                   the Department of Justice.                               The OIG is especially interested in the
facsimile (FAX) transmission. In                                                                          comments and suggestions the
commenting, please refer to file code                To ensure that all parties have an
                                                   opportunity to provide input, we are                   ambulance industry and affiliated
OIG–415–CPG. Comments received                                                                            providers may have regarding this draft
timely will be available for public                publishing this CPG in draft form, and
                                                   welcome specific comments from all                     CPG. The OIG recognizes that the
inspection as they are received,                                                                          ambulance industry is made up of
generally beginning approximately 2                interested parties. The OIG will
                                                   consider all comments that are received                entities of enormous variation: Some
weeks after publication of a document,                                                                    ambulance companies are large, many
in Room 5541 of the Office of Inspector            within the above-cited time frame,
                                                   incorporate any specific                               are small; some are for-profit, many are
General at 330 Independence Avenue,                                                                       not-for-profit; some are affiliated with
SW., Washington, DC 20201 on Monday                recommendations, as appropriate, and
                                                   prepare a final version of the CPG                     hospitals, many are independent; and
through Friday of each week from 8 a.m.                                                                   some are operated by municipalities or
to 4:30 p.m.                                       thereafter for publication in the Federal
                                                   Register.                                              counties, while others are commercially
FOR FURTHER INFORMATION CONTACT:                                                                          owned. Consequently, this guidance is
Sonya Castro (202) 619–2078 or Joel                Draft Compliance Program Guidance                      not intended to be a one-size-fits-all
Schaer (202) 619–1306, Office of                   for Ambulance Suppliers (May 2002)                     guide on ambulance supplier
Counsel to the Inspector General.                                                                         compliance programs. Rather, like the
                                                   I. Introduction
SUPPLEMENTARY INFORMATION:                                                                                previous OIG CPGs, this guidance is
                                                     In keeping with the previous efforts of              intended as a helpful tool for those
Background                                         the Office of Inspector General (OIG) to               entities that are considering establishing
   The ambulance industry has                      provide guidance to various health care                a voluntary compliance program, or for
experienced a number of instances of               industry sectors on sound compliance                   those that have already done so and are
ambulance provider and supplier fraud              program measures, the OIG is                           seeking to analyze, improve or expand
and abuse and has expressed interest in            publishing this draft compliance                       existing programs.3 As with the OIG’s
increasing the awareness of the industry           program guidance (CPG) 1 for the                       previous guidance, the guidelines
to assist in protecting against such               ambulance industry and other parties                   discussed in this CPG are not
conduct. In response to the industry’s             that are affected by the services                      mandatory. Nor do they represent an all-
concerns, the OIG has, to date, written            provided by ambulance suppliers.2 This                 inclusive document containing all the
several Advisory Opinions on a variety             CPG is divided into five separate                      components of a compliance program.
of ambulance-related issues 1 and has              sections with an appendix:                             Other OIG outreach efforts, as well as
published final rulemaking concerning a              • Section I is a brief introduction                  other Federal agency efforts to promote
safe harbor for ambulance restocking               about this CPG;                                        compliance, can also be used in
arrangements.2                                       • Section II provides information                    developing a compliance guidance.
   In an effort to provide further                 about the basic elements of a
guidance, the OIG published a Federal                                                                     A. Scope of the Compliance Program
                                                   compliance program for ambulance
Register notice on August 17, 2000 (65                                                                    Guidance
                                                   suppliers;
FR 50204) that solicited comments,                                                                          This guidance focuses on compliance
recommendations and other suggestions                1 In its solicitation of information and             measures related to services furnished
from concerned parties and                         recommendations for developing guidance for the        primarily to the Medicare program, and
organizations on how best to develop               ambulance industry (published in the Federal           to a limited extent, other Federal health
                                                   Register on August 17, 2000 (65 FR 50204), the OIG
compliance guidance for ambulance                  indicated that it expected to refer to the ambulance
                                                                                                          care programs. (See, e.g., section IV for
suppliers to reduce the potential for              compliance guidance as a ‘‘compliance risk             a brief discussion of Medicaid
fraud and abuse. The OIG expects that              guidance.’’ After additional input and to remain
final guidance will outline the most               consistent with the name and format of prior OIG         3 To date, the OIG has issued compliance program
                                                   compliance guidances, the OIG has decided to call      guidance for the following nine industry sectors: (1)
common and prevalent fraud and abuse               this document a compliance program guidance.           Hospitals; (2) clinical laboratories; (3) home health
risk areas for the ambulance industry,               2 Ambulance providers are all Medicare-              agencies; (4) durable medical equipment suppliers;
and provide direction on how to (1)                participating institutional providers that submit      (5) third-party medical billing companies; (6)
address various risk areas; (2) prevent            claims for Medicare ambulance services (hospitals,     hospices; (7) Medicare+Choice organizations
                                                   including critical access hospitals; skilled nursing   offering coordinated care plans; (8) nursing
the occurrence of instances of fraud and           facilities; and home health agencies). The term        facilities; and (9) individual and small group
                                                   supplier means an entity that is other than a          physician practices. The guidances listed here and
  1 See footnote 23 in section V.F. of the draft
                                                   provider. For purposes of this document, we will       referenced in this document are available on the
compliance program guidance.                       refer to both ambulance suppliers and providers as     OIG website at www.oig.hhs.gov in the Fraud
  2 See 66 FR 62979; December 4, 2001.             ambulance suppliers.                                   Prevention and Detection section.
                        Federal Register / Vol. 67, No. 109 / Thursday, June 6, 2002 / Notices                                        39017

ambulance coverage.) Issues related to      3. Education and Training Programs           statutes, regulations, or other Federal
private payor claims and services              Compliance programs must include as       health care program requirements.4
covered by private payors may also be                                                       Developing and implementing a
                                            a key element the regular training and
covered by an ambulance supplier                                                         compliance program may require
                                            education of employees and other
compliance program if the supplier so                                                    significant resources and time. An
                                            appropriate individuals. Training
desires.                                                                                 individual ambulance supplier is best
                                            content should be tailored appropriately
                                                                                         situated to tailor compliance measures
B. Basic Elements of a Compliance           and should be delivered in a way that
                                                                                         to its own organizational structure and
Program                                     will maximize the chances that the
                                                                                         financial capabilities. In addition,
                                            information will be understood by the        compliance programs should be
   While information and guidance           target audience. This CPG discusses
furnished in this CPG may form the                                                       reviewed periodically to account for
                                            training in more detail in section II.A.2.   changes in the health care industry,
basic framework for developing a
compliance program, this guidance is        4. Internal Monitoring and Reviews           Federal health care statutes and
not by itself a compliance program. The                                                  regulations, relevant payment policies
                                               Ambulance suppliers should develop
basic components that have become                                                        and procedures, and identified risks.
                                            and use appropriate monitoring                  Accordingly, the OIG has attempted to
accepted as the building blocks of an       methods to detect and identify
effective compliance program are: (1)                                                    take into consideration the Centers for
                                            problems, and to help reduce the future      Medicare and Medicaid Services’ (CMS)
Developing compliance policies and          likelihood of problems. Claims and
procedures; (2) designating a                                                            recent adoption of the fee schedule for
                                            system reviews are a common internal         payment of ambulance services. The
compliance officer or contact person(s);    monitoring method and are discussed in
(3) conducting appropriate training and                                                  CMS’s ambulance fee schedule is the
                                            greater detail in section II.A.3 of this     product of a negotiated rulemaking
education; (4) conducting internal          CPG.
monitoring and reviews; (5) responding                                                   process and will replace the current
appropriately to detected offenses and      5. Responding Appropriately to               retrospective, reasonable cost
developing corrective actions; (6)          Detected Misconduct                          reimbursement system for providers and
                                                                                         the reasonable charge system for
developing open lines of                       Ambulance suppliers should develop        suppliers of ambulance services.5 As
communication; and (7) enforcing            policies and procedures directed at          appropriate, the OIG may update or
disciplinary standards through well-        ensuring that the organization responds      supplement this CPG to address new
publicized guidelines. The components       appropriately to detected offenses,          identified risk areas following the
of a compliance program are briefly         including the initiation of appropriate      implementation of the ambulance fee
discussed below with a more in-depth        corrective action. An organization’s         schedule.
discussion in section II of this CPG.       response to detected misconduct will
                                            vary based on the facts and                  II. Elements of a Compliance Program
1. Development of Compliance Policies
                                            circumstances of the offense. However,       for Ambulance Suppliers
and Procedures
                                            the response should always be                   Like other sectors of the health care
  The ambulance supplier should             appropriate to resolve and correct the       industry, most ambulance suppliers are
develop and distribute written              situation in a timely manner. The            honest suppliers trying to deliver
standards of conduct, as well as written    organization’s compliance officer, and       quality ambulance transportation
policies and procedures, which promote      legal counsel in some circumstances,         services. However, like other health care
the ambulance supplier’s commitment         should be involved in situations when        industry sectors, the ambulance
to compliance and address specific          serious misconduct is identified.            industry has seen its share of fraudulent
areas of potential fraud or abuse. These                                                 and abusive practices. The OIG has
written policies and procedures should      6. Developing Open Lines of
                                            Communication                                reported and pursued a number of
be reviewed periodically (e.g., annually)                                                different fraudulent practices in the
and revised as appropriate to ensure          Ambulance suppliers should create          ambulance transport field involving,
they are current and relevant. (See         and maintain a process, such as a            among others:
section II.A.1 of this CPG for a more in-   hotline or other reporting system, to           • Situations when individuals had
depth discussion of the development of      receive and process complaints and to        other acceptable means of
policies and procedures.)                   ensure effective lines of communication      transportation;
                                            between the compliance officer and all          • Medically unnecessary trips;
2. Designation of a Compliance Officer
                                            employees. Further, procedures should
   The ambulance supplier should            be adopted to protect the anonymity of         4 The term ‘‘Federal health care programs’’ is

designate a compliance officer and other    complainants, where the complainant          applied in this CPG as defined in 42 U.S.C. 1320a–
                                                                                         7b(f), which includes any plan or program that
appropriate bodies (e.g., a compliance      desires to remain anonymous, and to          provides health benefits, whether directly, through
committee) charged with the                 protect whistleblowers from retaliation.     insurance, or otherwise, which is funded directly,
responsibility for operating and            7. Enforcing Disciplinary Standards
                                                                                         in whole or in part, by the United States
monitoring the organization’s                                                            Government (i.e., through programs such as
                                            Through Well-Publicized Guidelines           Medicare, Federal Employees’ Compensation Act,
compliance program. The compliance                                                       Black Lung, or the Longshore and Harbor Workers’
officer should be a high-level individual     Ambulance suppliers should develop         Compensation Act) and any State health plan (e.g.,
in the organization who reports directly    policies and procedures to ensure that       Medicaid, or a program receiving funds from block
to upper management, such as the chief      there are appropriate disciplinary           grants for social services or child health services).
                                            mechanisms and standards that are            Also, for purposes of this CPG, the term ‘‘Federal
executive officer or Board of Directors.                                                 health care program requirements’’ refers to
The OIG recognizes that an ambulance        applied in an appropriate and consistent     statutes, regulations, rules, requirements, directives,
supplier may tailor the job functions of    manner. These policies and standards         and instructions governing the Medicare and other
a compliance officer position by taking     should address situations in which           Federal health care programs.
                                                                                           5 The CMS’s final ambulance fee schedule was
into account the size and structure of      employees or contractors violate,
                                                                                         published in the Federal Register on February 27,
the organization, existing reporting        whether intentionally or negligently,        2002 (67 FR 9100) and went into effect on April 1,
lines, and other appropriate factors.       internal compliance policies, applicable     2002.
39018                    Federal Register / Vol. 67, No. 109 / Thursday, June 6, 2002 / Notices

   • Submission of excessive claims;         reimbursement policies, and payor            regard to their particular job positions
   • Trips were claimed but not              expectations.                                and responsibilities, whether or not as
rendered;                                    1. Policies and Procedures                   part of a formal compliance plan. The
   • Misrepresentation of the transport                                                   intensity and the nature of the specific
destination to make it appear as if the         Because policies and procedures           training will vary by employee type.
transport was covered;                       represent the written standard for daily     Training employees on the job functions
   • False documentation;                    operations, an ambulance supplier’s
                                                                                          of other people in the organization may
   • Billing for each patient transported    policies and procedures should describe
                                                                                          also be an effective training tool. Such
in a group as if he/she was transported      the normal operations of an ambulance
                                             supplier and the applicable rules and        appropriate cross-training improves
separately; and                                                                           employees’ overall awareness of
                                             regulations. Further, written policies
   • Upcoding from basic life support to                                                  compliance and job functions, thereby
                                             and procedures should go through a
advanced life support services.                                                           increasing the likelihood that an
                                             formal approval process within the
   To help reduce the incidence and                                                       individual employee will recognize
                                             organization and should be evaluated on
prevalence of fraudulent or abusive          a routine basis, and updated as needed,      non-compliance. Training should be
conduct, an ambulance supplier should        to reflect current ambulance practices       provided on a periodic basis to keep
consider the following guidance and          (assuming these practices are                employees current on ambulance
adapt the OIG’s suggestions to conform       appropriate and comport with the             supplier requirements, including, for
with any unique ambulance supplier           relevant statutes, regulations, and          example, the latest payor requirements.
elements.                                    program requirements). In addition,          Ambulance suppliers should conduct or
A. Evaluation and Risk Analysis              ambulance suppliers should review            make available training for employees at
                                             policies and procedures to ensure that       least yearly and more often as needed.
   It is prudent for ambulance suppliers     they are representative of actual
conducting a risk analysis to begin by                                                       Generally, employees who attend
                                             practices. For example, an ambulance
performing an evaluation of internal         supplier’s policy for reviewing              interactive training better comprehend
operations as well as factors that affect    ambulance call reports (ACR) should          the material presented. Interactive
such operations (e.g., Federal health        not state that it will review 100 percent    training offers employees the chance to
care program requirements). In many          of its ACRs, unless the ambulance            ask questions and receive feedback.
cases, such evaluation will result either    supplier is capable of performing and        When possible, ambulance suppliers
in the creation and adoption of written      enforcing such comprehensive reviews.        should use ‘‘real’’ examples of
policies and procedures or the revision      If certain policies and practices become     compliance pitfalls provided by
thereof. The evaluation process may be       genuinely impractical, we recommend          personnel with ‘‘real life’’ experience,
simple and straightforward or it may be      that such policies and procedures be         such as emergency medical technicians
fairly complex and involved. For             updated to reflect alternative, acceptable   and paramedics.
example, an evaluation of whether an         practices that conform to legal and
ambulance supplier’s existing written                                                        The OIG is cognizant that offering
                                             regulatory requirements.                     interactive, live training often requires
policies and procedures accurately
reflect current Federal health care          2. Training and Education                    significant personnel and time
program requirements is                         Ensuring that a supplier’s employees      commitments. As appropriate,
straightforward. However, an evaluation      and agents receive adequate education        ambulance suppliers may wish to
of whether an ambulance supplier’s           and training is essential to minimizing      consider seeking, developing, or using
actual practices conform to its policies     risk. Employees should clearly               other innovative training methods.
and procedures may be more complex           understand what is expected of them,         Computer or internet modules may be
and require several analytical               and for what they will be held               an effective means of training if
evaluations to determine whether             accountable. Suppliers should also           employees have access to such
system weaknesses are present. Even          document and track the training they         technology and if a system is developed
more complex is an evaluation of an          provide to employees and pertinent           to allow employees to ask questions.
ambulance supplier’s practices when          personnel.                                   The OIG cannot endorse any
there are no pre-existing written policies      An ambulance supplier should              commercial training product—it is up to
and procedures and the subsequent            consider offering two types of               each ambulance supplier to determine if
analysis of whether the particular           compliance training: compliance              the training methods and products are
supplier’s practices comply with             program training and job-specific            effective and appropriate.
applicable statutes, regulations, and        training. If an ambulance supplier is
other program requirements.                                                                  Whatever form of training ambulance
                                             implementing a formal compliance
   The evaluation process should furnish                                                  suppliers provide, the OIG also
                                             program, employees should be trained
ambulance suppliers with a snapshot of                                                    recommends that employees complete a
                                             on the elements of the program, the
their strengths and weaknesses and thus      importance of the program to the             post compliance training test or
assist providers in recognizing areas of     organization, the purpose and goals of       questionnaire to verify comprehension
potential risk. We suggest that              the program, what the program means          of the material presented. This will
ambulance suppliers evaluate a variety       for each individual, and the key             allow a supplier to assess the
of practices and factors, including their    individuals responsible for ensuring         effectiveness and quality of its training
policies and procedures, employee            that the program is operating                materials and techniques. Additionally,
training and education, employee             successfully. Compliance program             training materials should be updated as
knowledge and understanding, claims          education should be available to all         appropriate and presented in a manner
submission process, coding and billing,      employees, even those whose job              that is understandable by the average
accounts receivable management,              functions are not directly related to        trainee. Finally, the OIG suggests that
documentation practices, management          billing or patient care.                     the employees’ attendance at, and
structure, employee turnover,                   Ambulance suppliers should also           completion of, training be tracked and
contractual arrangements, changes in         train employees on specific areas with       appropriate documentation maintained.
                                Federal Register / Vol. 67, No. 109 / Thursday, June 6, 2002 / Notices                                          39019

3. Assessment of Claims Submission                      of inadequate documentation. Further          Protocol.7 The Provider Self-Disclosure
Process                                                 evaluation may reveal that the                Protocol was designed to allow
   Ambulance suppliers should conduct                   documentation deficiencies involve a          providers/suppliers to disclose
periodic claims reviews to verify that a                limited number of individuals who             voluntarily potential violations in their
claim ready for submission, or one that                 work on a specific shift. It is the           dealings with the Federal health care
has been submitted and paid, contains                   ambulance supplier’s responsibility to        programs.
the required, accurate, and truthful                    identify such weaknesses and to               a. Pre-Billing Review of Claims
information required by the payor. An                   promptly correct them. In this example,
                                                        at a minimum, additional employee                As a general matter, ambulance
ambulance claims review should focus,                                                                 suppliers should review claims on a
at a minimum, on the documentation                      training would be required along with
                                                                                                      pre-billing basis to identify errors before
present in the ACR, the medical                         the repayment of any identified
                                                                                                      claims are submitted. If there is
necessity of the transport as determined                overpayment. Such a detailed and
                                                                                                      insufficient documentation to support
by payor requirements, the coding of the                logical process of analysis will make
                                                                                                      the claim, the claim should not be
claim, the co-payment collection                        claims reviews useful tools for               submitted for payment until it is
process, and the subsequent payor                       identifying risks, correcting weaknesses,     determined by a responsible person
reimbursement. The claims reviews                       and preventing future occurrences of          within the organization that the
should be conducted by individuals                      errors.                                       appropriate, adequate documentation
with experience in coding and billing                      Ambulance suppliers should also            exists to support the claim. Pre-billing
and they should be familiar with the                    consider using a baseline audit to            reviews also allow suppliers to review
different payors’ coverage and                          develop a benchmark from which to             the medical necessity of their claims
reimbursement requirements for                          measure performance. This audit will          before they are submitted for
ambulance services. The reviewers                       establish a consistent methodology for        reimbursement. If, as a result of the pre-
should be independent and objective in                  selecting and examining records in            billing claims review process, a pattern
their approach. Claims reviewers who                    future audits. It is helpful to chart and     of claim submission or coding errors is
analyze claims that they themselves                     track the results of each of the audits to    identified, the ambulance supplier
prepared or supervised often lack                       document progress. The results of each        should develop a responsive action plan
sufficient independence to accurately                                                                 (see section II.C), which would include
                                                        subsequent audit will indicate whether
evaluate the claims submissions process                                                               a plan to ensure that overpayments are
                                                        further actions are appropriate.
and the accuracy of individual claims.                                                                identified and repaid.
                                                        Comparing audit results from different
Additionally, the appearance of a lack of
                                                        audits will generally yield useful results    b. Paid Claims
independence may also hinder the
                                                        only when the audits analyze the same            In addition to a pre-billing review, a
effectiveness of a claims review.
   Depending on the purpose and scope                   or similar information and when               review of paid claims may be necessary
of a claims review, there are a variety of              matching methodologies are used. For          to determine error rates and quantify
ways to conduct the review. The claims                  example, results of audits of a supplier’s    overpayments and/or underpayments.
review may focus on particular areas of                 compliance with the physician                 The post-payment review may help
interest (i.e., coding accuracy) or it may              certification statement requirements for      ambulance suppliers in identifying
include all aspects of the claims                       non-emergency transports and a                billing or coding software system
submission and payment process. The                     supplier’s compliance with ambulance          problems. Any overpayments identified
universe 6 from which the claims are                    and vehicle licensure cannot be readily       from the review should be promptly
selected will comprise the area of focus                compared. The trending information            returned to the appropriate payor in
for the review. Once the universe of                    may need to be broken out and                 accordance with payor policies.
claims has been identified, an                          separately analyzed to track compliance.
                                                                                                      c. Claims Denials
acceptable number of claims should be                      As part of its compliance efforts, an
randomly selected. Because the universe                 ambulance supplier should document               Ambulance suppliers periodically
of claims will vary as will the variability             (i) how often audits or reviews are           should review their claims denials from
of items in the universe, the OIG cannot                                                              payors to determine if denial patterns
                                                        conducted and (ii) the information
specify a generally acceptable number of                                                              exist. If a pattern of claims denials is
                                                        reviewed for each audit. In addition, the
claims for purposes of a claims review.                                                               detected, the patterns should be
                                                        results of such reviews should be
However, the number of claims sampled                                                                 evaluated to determine the cause and
                                                        compared to previous findings to
and reviewed should sufficiently ensure                                                               appropriate course of action. Employee
                                                        determine if a problem persists or if the     education regarding proper
that the results are representative of the              supplier’s corrective actions are
universe of claims from which the                       working. The ambulance supplier                  7 The OIG encourages that providers/suppliers
sample was pulled.                                      should not only use internal                  police themselves, correct underlying problems,
   Ambulance suppliers should not only                  benchmarks, but should utilize external       and work with the Government to resolve any
monitor identified errors, but also                     information, if available, to establish       problematic practices. The OIG’s Provider Self-
evaluate the source or cause of the                                                                   Disclosure Protocol, published in the Federal
                                                        benchmarks (e.g., data from other             Register on October 30, 1998 (63 FR 58399), sets
errors. For example, an ambulance                       ambulance suppliers, associations, or         forth the steps, including a detailed audit
supplier may identify through a review                  from carriers). Additionally, risk areas      methodology, that may be undertaken if suppliers
a certain claims error rate. Upon further               may be identified from the results of the     wish to work openly and cooperatively with the
evaluation, the ambulance supplier may                                                                OIG. The Provider Self-Disclosure Protocol is open
                                                        audits.                                       to all health care providers and other entities and
determine that the errors were a result                                                               is intended to facilitate the resolution of matters
                                                           If, as a result of the audit, a material   that, in the provider’s reasonable assessment, may
  6 The term ‘‘universe’’ is referred to in this CPG    deficiency is identified that could be a      potentially violate Federal criminal, civil, or
to mean the generally accepted definition used          potential criminal, civil, or                 administrative laws. The Provider Self-Disclosure
when performing a statistical analysis. Specifically,   administrative violation, the ambulance       Protocol is not intended to resolve simple mistakes
the term ‘‘universe’’ means the total number of                                                       or overpayment problems. The OIG’s Self-
sampling units from which the sample was
                                                        supplier may disclose the matter to the       Disclosure Protocol can be found on the OIG web
selected.                                               OIG via the Provider Self-Disclosure          site at www.oig.hhs.gov.
39020                    Federal Register / Vol. 67, No. 109 / Thursday, June 6, 2002 / Notices

documentation, coding, or medical           Conversely, if information is                         than an ambulance supplier would
necessity may be appropriate. If an         automatically inserted onto a claim                   encounter based on its own internal
ambulance supplier believes its carrier     submitted for reimbursement, and that                 findings and circumstances. Because
or payor is not adequately explaining       information is false, the ambulance                   there are many different types of risk
the basis for its denials, the ambulance    supplier’s claims will be false. If a                 areas, ambulance suppliers should
supplier should seek clarification in       required field on a claim form is missing             prioritize their identified risks to ensure
writing.                                    information, the system should flag                   that the various areas are addressed
                                            such a claim prior to its submission.                 appropriately.
4. System Reviews and Safeguards                                                                     To stay abreast of risks affecting the
   Periodic review and testing of a         5. Sanctioned Suppliers                               ambulance and other health care
supplier’s coding and billing systems          Federal law prohibits Medicare                     industries, the OIG recommends that
are also essential to detect system         payment for services furnished by an                  ambulance suppliers review OIG
weaknesses. One reliable systems            excluded individual, such as an                       publications regarding ambulance
review method is to analyze in detail       excluded ambulance crew-member.                       services, including OIG Advisory
the entire process by which a claim is      Accordingly, with respect to its existing             Opinions, OIG Fraud Alerts, Office of
generated, including how a transport is     employees and contractors, ambulance                  Evaluations and Inspections (OEI)
documented and by whom, how that            suppliers should periodically (at least               reports, and Office of Audit Services
information is entered into the             yearly) check the OIG’s and General                   (OAS) reports, all located on the OIG’s
supplier’s automated system (if any),       Services Administration’s (GSA) web                   web site at www.oig.hhs.gov. A review
coding and medical necessity                sites to ensure that they do not employ               of industry specific trade publications
determination protocols, billing system     or contract with individuals or entities              will also help ambulance suppliers stay
processes and controls, including any       that have been recently convicted of a                current on the industry changes.
edits or data entry limitations, and        criminal offense related to health care or            Ambulance suppliers, like others in the
finally the claims generation,              who are listed as debarred, excluded or               health care industry, should devote the
submission, and subsequent payment          otherwise ineligible for participation in             necessary resources to ensure
tracking processes. A weakness or           Federal health care programs.                         compliance with relevant requirements.
deficiency in any part of the supplier’s    Additionally, ambulance suppliers                     Effective internal controls will help to
system can lead to improper claims,         should query the OIG and GSA                          prevent or reduce instances of mistakes,
undetected overpayments, or failure to      exclusion and debarments lists before                 errors, fraud and/or abuse.
detect system defects.                      they employ or contract with new
   Each ambulance supplier should have                                                            C. Response to Identified Risks
                                            employees and new contractors. The
computer or other system edits to           OIG and GSA websites are listed at                       Following an ambulance supplier’s
ensure that minimum data requirements                                                             process of evaluation and identification
                                            www.oig.hhs.gov and www.arnet.gov/
are met. For example, documentation of                                                            of its risks, a reasonable response
                                            epls respectively, and contain specific
ambulance transports must now                                                                     should be developed to address
                                            instructions for searching the exclusion
indicate the point of pick-up of the                                                              appropriately identified risk areas.
                                            and debarment databases.8
beneficiary. Under CMS’s new fee                                                                  Determining how identified problems
                                               B. Identification of Risks
schedule for ambulance services, each                                                             respond to corrective actions may
                                               This ambulance CPG discusses many
transport claim that does not have an                                                             require continual oversight. However,
                                            of the areas that the ambulance
originating zip code listed should be                                                             developing timely and appropriate
                                            industry, the OIG, and CMS have
‘‘flagged’’ by the system. Other edits                                                            responsive actions demonstrates to an
                                            identified as common risks for many
should be established to detect                                                                   ambulance supplier’s employees and
improper claims, such as emergency          ambulance suppliers. Apart from the
                                            risks identified in this CPG, ambulance               other interested parties (e.g., payors, the
codes used when the destination is                                                                OIG, etc.) its level of commitment to
something other than an emergency           suppliers of all types (e.g., small, large,
                                            rural, emergency, non-emergency)                      address problems and concerns.
room. A systems review is especially                                                                 Ambulance suppliers should develop
important when documentation or             should identify if they have any unique
                                                                                                  protocols and reasonable timeframes for
billing requirements are modified or        risks attendant to their business
                                                                                                  responding to identified problems.
when an ambulance supplier changes its      relationships or processes. An
                                                                                                  Ambulance suppliers can identify in
billing software or claims vendors. As      ambulance supplier may have certain
                                                                                                  advance and through a written protocol
appropriate, ambulance suppliers            unique characteristics that will affect its
                                                                                                  how certain situations will be
should communicate with their carrier       risk areas. For example, small, rural not-
                                                                                                  addressed, including the internal
when they are implementing significant      for-profit ambulance suppliers may
                                                                                                  reporting obligations and involvement,
changes to their system to alert the        identify risk areas different from those
                                                                                                  if appropriate, of legal counsel. Such
carrier to any unexpected delays, or        of a large, for-profit ambulance chain
                                                                                                  response protocols should include a
increases or decreases in claims            that competes with multiple other
                                                                                                  monitoring process by which the issue
submissions.                                ambulance suppliers. This CPG may not
                                                                                                  will be revisited on an as needed basis.
   Ambulance suppliers have the             identify or discuss all risks that an
responsibility of ensuring that their       ambulance supplier may itself identify.               III. Specific Fraud and Abuse Risks
electronic or computer billing systems      Moreover, the CPG may ascribe more or                 Associated with Medicare Ambulance
are not automatically inserting             less risk to a particular practice area               Coverage and Reimbursement
information that is not supported by the                                                          Requirements
                                               8 Ambulance suppliers should read the OIG’s
documentation of the medical or trip        September 1999 Special Advisory Bulletin, entitled
                                                                                                     Ambulance suppliers should, at a
sheets (e.g., whether physician signature   ‘‘The Effect of Exclusion From Participation in the   minimum, review and understand
was obtained). Billing systems targeting    Federal Health Care Programs,’’ published in the      applicable ambulance coverage
optimum efficiency may be set with          Federal Register on October 7,1999 (64 FR 58851)      requirements. Ambulance suppliers that
                                            and is located at www.oig.hhs.gov/frdalrt, for more
defaults to indicate, for example, that a   information regarding excluded individuals and
                                                                                                  are not complying with applicable
physician’s signature was obtained          entities and the effect of employing such             requirements should take appropriate
following an emergency room transport.      individuals or entities.                              prompt corrective action to follow the
                             Federal Register / Vol. 67, No. 109 / Thursday, June 6, 2002 / Notices                                                       39021

standards set forth. The new Medicare               ambulance cases involving upcoding                       care and liability reasons, ambulance
ambulance fee schedule covers seven                 from BLS to ALS related to both                          suppliers often transport patients who
levels of service including Basic Life              emergency and non-emergency                              do not appear to meet Medicare’s non-
Support (BLS), Advanced Life Support,               transports. In 1999, for example, an OIG                 emergency medical necessity
Level 1 (ALS1), Advanced Life Support,              investigation determined that an                         requirements. If an ambulance supplier
Level 2 (ALS2), Specialty Care                      ambulance supplier was not only billing                  determines that a transport is not
Transport, Paramedic ALS Intercept,                 for ALS services when BLS services                       covered by Medicare, the ambulance
Fixed Wing Air Ambulance, and Rotary                were provided, but the ambulance                         supplier should attempt to obtain a
Wing Air Ambulance.9 Generally,                     supplier did not employ an ALS                           signed Advanced Beneficiary Notice
Medicare Part B covers ambulance                    certified individual to perform the                      (ABN) from the Medicare beneficiary.
transports if applicable vehicle and staff          necessary ALS services. This supplier                    As part of the ABN process, the
requirements, medical necessity                     paid civil penalties and signed a 5-year                 ambulance supplier should explain to
requirements, billing and reporting                 Corporate Integrity Agreement (CIA).                     the beneficiary that the service may not
requirements, and origin and                                                                                 be covered by Medicare, in which case
                                                    2. Non-Emergency Transports
destination requirements are met.                                                                            the patient will be responsible for
Medicare Part B will not pay for                       There have also been a number of                      payment of the transport and other non-
ambulance services if Part A has paid               Medicare fraud cases involving (i) non-                  covered services.
directly or indirectly for the same                 emergency transports to non-covered                         Under no circumstances should
services (e.g., a transport from a skilled          destinations and (ii) transports that were               ambulance suppliers intentionally
nursing facility to a hospital).                    not medically necessary. An OIG OEI                      mischaracterize the condition of the
                                                    report 11 issued in December 1998 found                  patient at the time of transport in an
A. Medical Necessity                                that a high number of non-emergency                      effort to claim inappropriately that the
   There have been a number of                      transports for which Medicare claims                     transport was medically necessary
transportation fraud cases against the              were submitted were medically                            under Medicare coverage requirements.
Medicare and Medicaid programs                      unnecessary as defined by Medicare’s                     In instances where it is not clear
involving medically unnecessary                     criteria.12 The report indicated, for                    whether the service will be covered by
transport. Consequently, medical                    example, that certain surveyed patients                  Medicare, the ambulance provider
necessity is a risk area that should be             had been sitting unaided in a chair the                  should nonetheless appropriately
addressed in an ambulance supplier’s                day of and the day after the ambulance                   document the condition of the patient
compliance program. Medicare Part B                 transport. Another patient was found                     and maintain records of the transport.
covers ambulance services only if the               sitting in a wheelchair when the
beneficiary’s medical condition                     ambulance arrived and refused                            Scheduled and Unscheduled Transports
contraindicates another means of                    assistance to get back to bed. These                        Because of the potential for abuse in
transportation. The medical necessity               patients did not meet the Medicare                       the area of non-emergency transports,
requirements vary depending on the                  coverage criteria for non-emergency                      Medicare has criteria for the coverage of
status of the ambulance transport (i.e.,            transports and could have been                           non-emergency scheduled and
emergency transport vs. non-emergency               transported by means other than by                       unscheduled ambulance transports. For
transport). If the medical necessity                ambulance.                                               example, physician certification
requirement is met, Medicare Part B                    In addition, an August 2001 report 13                 statements (PCS) should be obtained by
covers ambulance services when a                    conducted by the OIG’s OAS at the                        an ambulance supplier to verify that the
beneficiary is transported:                         request of a Medicare Part B carrier,                    transport was medically necessary.14
   • To a hospital, a critical access               determined that an ambulance supplier                    The PCSs should provide adequate
hospital (CAH), or a skilled nursing                received significant overpayments. For                   information on the transport provided
facility (SNF) from anywhere, including             example, of the 100 trip sheets reviewed                 for each individual beneficiary and each
another acute care facility or SNF;                 by the OIG, 99 of the trip sheets did not                PCS must be signed by an appropriate
   • To his or her home from a hospital,            indicate whether the beneficiary was                     physician or other appropriate health
CAH, or SNF; or                                     bed-confined.                                            care professional.15 Pre-signed and/or
   • Round trip from a hospital, CAH, or               There are instances when an                           mass produced PCSs are not acceptable
SNF to an outside supplier to receive               ambulance supplier receives a call for                   because they increase the opportunity
medically necessary therapeutic or                  assistance or transport of a patient who                 for abuse.
diagnostic services.                                does not meet the medical necessity                         Medicare does not cover transports for
                                                    requirements. Due to various patient                     routine doctor and dialysis
1. Upcoding
                                                                                                             appointments when beneficiaries do not
   Notwithstanding local or state                      11 OIG Report, OEI–09–95–00412 is available on
                                                                                                             meet the Medicare medical necessity
ordinance requirements regarding                    the OIG’s web site at www.oig.hhs.gov/oei.
                                                       12 Medicare’s ambulance fee schedule identifies
                                                                                                             requirements. For example, Medicare
ambulance staffing and all-ALS                                                                               does not normally pay for non-
                                                    non-emergency transport as appropriate if the
mandated services,10 ambulance                      beneficiary is bed confined and it is documented         emergency scheduled or unscheduled
suppliers should use caution to bill, at            that the beneficiary’s medical condition is such that    ambulance transportation to a
the appropriate level, for services                 other methods of transportation are contraindicated,     physician’s office from a personal
actually provided. The Federal                      or if his or her medical condition, regardless of bed-
                                                    confinement, is such that transportation by              residence or nursing facility when a
Government has prosecuted a number of               ambulance is medically required. In determining
                                                    whether a beneficiary is bed-confined, the following       14 CMS (formerly the Health Care Financing
  9 The  Negotiated Rulemaking Committee on the     criterial must be met: (1) The beneficiary is unable     Administration (HCFA)) Program Memorandum B–
Medicare Ambulance Services Fee Schedule used       to get up from bed without assistance; (2) the           00–09 describes different options for ambulance
the National EMS Education and Practice Blueprint   beneficiary is unable to ambulate; and (3) the           suppliers having difficulty obtaining PCSs. See 42
as the basis for defining the levels of ambulance   beneficiary is unable to sit in a chair or wheelchair.   CFR 410.40(d)(3)(iii), (iv). For beneficiaries not
service.                                            42 CFR 410.40(d).                                        under the direct care of a physician, whether they
  10 Payment for ALS transports provided at the        13 August 20, 2001, OIG Report, A–03–01–00001         reside at home or in a facility, a PCS is not required.
BLS level will be phased in over CMS’s ambulance    is available on the OIG’s web site at                    Id. § 410.40(d)(3)(ii).
fee schedule transition period.                     www.oig.hhs.gov/oas.                                       15 42 CFR 410.40(d).
39022                         Federal Register / Vol. 67, No. 109 / Thursday, June 6, 2002 / Notices

patient is able to ambulate. Similarly,                 • Mileage traveled;                                   a rural adjustment factor will be applied
ambulance services that are rendered for                • Pick up and destination codes;                      to the base rate. The ambulance supplier
convenience or because other methods                    • Appropriate zip codes; and                          should document the address of the
of more appropriate transportation are                  • Services provided, including drugs                  point of pick-up to verify that the zip
not available, do not meet Medicare’s                 or supplies.                                            code is accurate.
medical necessity requirements and                    1. HCPCS and Diagnosis Code Selection                      The ambulance crew should
claims for such services should not be                                                                        accurately report the mileage traveled
submitted to Medicare for payment. For                   The appropriate diagnosis and                        from the point of pick-up to the
example, an ambulance provider was                    procedure codes (e.g., ICD–9, HCPCS/                    destination. Medicare covers ambulance
required to pay over $1 million dollars               CPT) should be used when submitting                     transports to the nearest available
to the Federal Government and enter                   claims for reimbursement. The codes                     treatment facility. If the nearest facility
into a CIA with the OIG for billing for               reported on the ambulance trip sheets or                is not appropriate (e.g., because of traffic
medically unnecessary ambulance trips                 claim forms should be selected to                       patterns or lack of equipment), the
and for non-covered ambulance trips to                describe most accurately the illness,                   beneficiary should be taken to the next
doctors’ offices.                                     injury, signs or symptoms associated                    closest and appropriate facility. If a
                                                      with the patient and transport. Although                beneficiary requests a transport to a
B. Documentation, Billing, and                        ICD–9 codes are universally known as                    facility other than the nearest
Reporting Risks                                       diagnosis codes, coders use them to                     appropriate facility, the ambulance
   Currently, the HCFA 1491 or 1500                   describe signs and symptoms.17 Coders                   supplier should inform the patient that
forms are the approved forms for                      are taught that the patient’s condition                 he or she may be responsible for
requesting Medicare payment for                       should be coded to the highest level of                 payment of the additional mileage
ambulance services. Inadequate or                     certainty and specificity. Diagnostic                   incurred.
faulty documentation is a key risk area               code information should not be based
                                                                                                              3. Multiple Payors—Coordination of
for ambulance suppliers. The                          on past medical history or prior
                                                                                                              Benefits
compilation of correct and accurate                   conditions, unless such information also
documentation (whether electronic or                  specifically relates to the patient’s                      Ambulance suppliers should make
hard copy) is generally the                           condition at the time of transport.                     every attempt to determine whether
responsibility of all the ambulance                      False or uncertain diagnoses should                  Medicare, Medicaid, or other Federal
personnel, including the dispatcher who               never be added to the trip sheets or                    health care programs should be billed as
receives a request for transportation, the            claims to justify reimbursement. If there               the primary or as the secondary
personnel transporting the patient, and               is a question on the proper code to use                 insurance. Claims for payment should
the coders and billers submitting claims              when coding from the trip sheet or                      not be submitted to more than one
for reimbursement. When documenting                   preparing a bill that cannot be                         payor, except for purposes of
a service, ambulance personnel should                 appropriately resolved within the                       coordinating benefits (e.g., Medicare as
not make assumptions or inferences to                 organization’s proper chain of                          secondary payer). Section 1862(b)(6) of
compensate for a lack of information or               command, the ambulance supplier                         the Social Security Act (42 U.S.C.
contradictory information on a trip                   should seek guidance, in writing, from                  1395y(b)(6)) states that an entity that
sheet, ACR, or other medical source                   its local carrier. In addition to obtaining             knowingly, willfully, and repeatedly
documents.16                                          written guidance, ambulance suppliers                   fails to provide accurate information
   To ensure that adequate and                        should maintain documentation of                        relating to the availability of other
appropriate information is documented,                communication with its carrier. If the                  health benefit plans shall be subject to
an ambulance supplier should gather                   ambulance supplier experiences                          a civil monetary penalty (CMP).
and record, at a minimum, the                         difficulty in obtaining clarification, it                  The OIG recognizes, particularly for
following:                                            should submit with the claim a                          ambulance suppliers that may have
   • Dispatch instructions, if any;                   narrative explaining the issue and the                  incomplete insurance information from
   • Reasons why transportation by                    basis for the selected choice. Copies of                a transported patient, that there are
other means was contraindicated;                      any carrier correspondence should be                    instances when the secondary payor is
   • Reasons for selecting the level of               appropriately maintained by the                         not known or cannot be determined
service;                                              ambulance supplier.                                     before the ambulance transportation
   • Information on the bed-confined                                                                          claim is submitted. In such situations, if
status of the individual;                             2. Origin/Destination Requirements—                     it is determined that an inappropriate or
   • Who ordered the trip;                            Loaded Miles 18                                         duplicate payment is received, the
   • Time spent on the trip;                            Medicare only covers transports for                   payment should be refunded to the
   • Dispatch, arrival at scene, and                  the time that the patient is physically in              appropriate payor in a timely manner.
destination times;                                    the ambulance. Effective January 1,                     Accordingly, ambulance suppliers
                                                      2001, ambulance suppliers must furnish                  should develop a system to track and
  16 On December 28, 2000, the Department of
                                                      the ‘‘point of pick-up’’ zip code on each               quantify credit balances to return
Health and Human Services (HHS) released its final
rule implementing the privacy provisions of the       ambulance claim form.19 Under the new                   overpayments when they occur.
Health Insurance Portability and Accountability Act   Medicare ambulance fee schedule, the                    C. Medicare Part A Payment for ‘‘Under
of 1996. The rule became effective in April 2001,     point of pick-up will determine the                     Arrangements’’ Services
and regulates access, use, and disclosure of          mileage payment rate as well as whether
personally identifiable health information by                                                                    In certain instances, including
covered entities (health providers, plans, and
clearinghouses). Guidance on an ambulance
                                                         17 Only licensed physicians and certain other        transports for patients of a SNF, hospital
supplier’s compliance with the HHS Privacy            licensed practitioners can make determinations on       or CAH, Medicare Part A covers
Regulations is beyond the scope of this CPG;          a patient’s diagnosis.                                  ambulance transports. Ambulance
                                                         18 Loaded miles refers to the number of miles that
however, it will be the responsibility of ambulance                                                           suppliers that provide such inpatient
suppliers to comply. Most health plans and            the patient is physically on board the emergency
providers must comply with the rule by April 14,      vehicle.                                                transports ‘‘under arrangements’’ should
2003. In the meantime, many organizations are            19 HCFA Program Memorandum Transmittal AB–           not bill Medicare for these transports.
considering and analyzing the privacy issues.         00–118, issued on November 30, 2000.                    Medicare reimburses the facility under
                              Federal Register / Vol. 67, No. 109 / Thursday, June 6, 2002 / Notices                                                        39023

the Part A payment for the patient’s                7b).) It is a criminal prohibition that                        violated. (See section 1128B of the
entire Part A stay, including any pre-              subjects violators to possible                                 Social Security Act (42 U.S.C. 1320a–
discharge ambulance transports. Thus,               imprisonment and criminal fines. In                            7b).)
ambulance suppliers should not submit               addition, violations of the anti-kickback
                                                                                                                   D. Who Is a Referral Source for
a claim to Medicare Part A or B for a               statute may give rise to CMPs and
                                                                                                                   Ambulance Suppliers?
service that was provided under                     exclusion from the Federal health care
arrangement with a Part A provider. In              programs. Both parties to an                                     Any person or entity in a position to
addition, all such arrangements should              impermissible kickback transaction may                         generate Federal health care program
be carefully reviewed to ensure that                be liable: the party offering or paying                        business for an ambulance supplier is a
there is no violation of the anti-kickback          the kickback and the party soliciting or                       potential referral source. Typically,
statute, as more fully described in                 receiving it. The key inquiry under the                        these sources include, but are not
section V of this CPG.                              statute is whether the parties intend to                       limited to, governmental ‘‘9–1–1’’ or
                                                    pay, or be paid, for referrals. An                             comparable emergency medical
IV. Medicaid Ambulance Coverage                     ambulance supplier should neither                              dispatch systems, private dispatch
   The Medicaid program, a joint Federal            make nor accept payments intended to                           systems, first responders, hospitals,
and State health insurance program,                 generate Federal health care program                           nursing facilities, assisted living
provides funds for health care providers            business.                                                      facilities, home health agencies,
and suppliers that perform or deliver                                                                              physician offices and patients.
                                                    B. What Are the ‘‘Safe Harbors’’?
medically necessary services for eligible                                                                          E. For Whom Are Ambulance Suppliers
Medicaid recipients. Medicaid                          The Department has promulgated
                                                                                                                   Sources of Referrals?
regulations, to which ambulance                     ‘‘safe harbor’’ regulations that describe
suppliers must adhere, vary depending               payment practices that do not violate                            In some circumstances, ambulance
on the applicable State regulations.                the anti-kickback statute, provided the                        suppliers furnishing ambulance services
However, two Federal regulations form               payment practice fits squarely within a                        may be sources of referrals (i.e.,
the basis for all Medicaid                          safe harbor. The safe harbor regulations                       patients) for hospitals, other receiving
reimbursement for transportation                    can be found at 42 CFR 1001.952 and on                         facilities, and second responders.
services and ensure a minimum level of              the OIG web page at http://                                    Ambulance suppliers that furnish other
coverage for transportation services. All           www.dhhs.gov/progorg/oig/ak/                                   types of transportation, such as
States that receive Federal Medicaid                index.htm#. The safe harbor regulations                        ambulette or van transportation, may
funds are required to assure                        are voluntary regulations. Thus, failure                       also be sources of referrals for other
transportation for Medicaid recipients to           to comply with a safe harbor does not                          providers of Federal heath care program
                                                    mean that an arrangement is illegal.                           services, such as physician offices,
and from medical appointments (42 CFR
                                                    Rather, arrangements that do not fit                           diagnostic facilities, and certain senior
431.53). Federal regulations further
                                                    must be analyzed under the anti-                               centers. In general, ambulance
define medical transportation and
                                                    kickback statute on a case-by-case basis                       suppliers, particularly those furnishing
describe costs that can be reimbursed
                                                    to determine if there is a violation. To                       emergency services, have relatively
with Medicaid funds (42 CFR
                                                    minimize the risk of a violation,                              limited abilities to generate business for
440.170(a)).
   In short, Medicaid often covers                  ambulance suppliers should structure                           other providers or inappropriately steer
ambulance transports that are not                   arrangements to take advantage of the                          patients to certain emergency providers.
typically covered by Medicare, such as              protection offered by the safe harbors.                        F. How Can Ambulance Suppliers
coverage of transports in wheelchair                Among the safe harbors potentially                             Avoid Risk Under the Anti-Kickback
vans, cabs and ambulettes. The State                relevant to ambulance suppliers are the                        Statute?
Medicaid Fraud Control Units and                    safe harbors for space and equipment
                                                                                                                     Because of the gravity of the penalties
Federal law enforcement have pursued                rentals, personal services and
                                                                                                                   under the anti-kickback statute,
many fraud cases related to                         management contracts, discounts,
                                                                                                                   ambulance suppliers are strongly
transportation services billed to                   employees, price reductions offered to
                                                                                                                   encouraged to consult with experienced
Medicaid programs. Ambulance                        health plans, shared risk arrangements,
                                                                                                                   legal counsel about any financial
suppliers should review the Medicaid                and ambulance restocking
                                                                                                                   relationships with potential referral
regulations governing their State or                arrangements.21
                                                                                                                   sources. In addition, ambulance
service territories to ensure that any              C. What Is ‘‘Remuneration’’ for Purposes                       suppliers should review OIG guidance
billed services meet applicable                     of the Statute?                                                related to the anti-kickback statute,
Medicaid requirements.                                                                                             including advisory opinions, fraud
                                                       Under the anti-kickback statute,
V. Kickbacks and Inducements                        ‘‘remuneration’’ means virtually                               alerts and Special Advisory Bulletins.
                                                    anything of value. A prohibited                                Ambulance suppliers concerned about
A. What Is the Anti-Kickback Statute?                                                                              particular existing or proposed
                                                    kickback payment may be in paid cash
  The anti-kickback statute prohibits               or in-kind, directly or indirectly,                            arrangements may obtain binding
the purposeful payment of anything of               covertly or overtly. Almost anything of                        advisory opinions from the OIG.22
value (i.e., remuneration) in order to              value can be a kickback, including, but                          Ambulance suppliers should exercise
induce or reward the generation of                  not limited to, money, goods, services,                        common sense when evaluating existing
Federal health care program business,               free rent, meals, travel, gifts, and
including Medicare and Medicaid                     investment interests. Paying for referrals
                                                                                                                     22 The procedures for applying for advisory

business.20 (See section 1128B(b) of the                                                                           opinions are set forth at 42 CFR part 1008 and on
                                                    need not be the only or primary purpose                        the OIG web page at www.oig.hhs.gov/advopn/
Social Security Act (42 U.S.C. 1320a–               of a payment; as courts have found, if                         index.htm. All OIG advisory opinions are published
                                                    any one purpose of the payment is to                           on the OIG web page. Several published opinions
  20 In addition to Medicare and Medicaid, the                                                                     involve ambulance arrangements and may provide
Federal health care programs include, but are not   induce or reward referrals, the statute is                     useful guidance for ambulance suppliers. These
limited to, TRICARE, Veterans Health Care, Public                                                                  include OIG Advisory Opinions 97–6, 98–3, 98–7,
Health Service programs, and the Indian Health        21 42   CFR 1001.952 (b), (c), (d), (h), (i), (t), (u) and   98–13, 99–1, 99–2, 99–5, 00–7, 00–9, 00–11, 01–10,
Services.                                           (v).                                                           01–11, 01–12, 01–18, 02–2 and 02–3.
39024                            Federal Register / Vol. 67, No. 109 / Thursday, June 6, 2002 / Notices

or prospective arrangements under the                      1. Arrangements for Emergency Medical                   areas include, but are not limited to,
anti-kickback statute. One good rule of                    Services (EMS)                                          routine waivers of copayments, 26
thumb is that all arrangements for items                      Contracts with cities or other EMS                   ‘‘insurance programs’’ offering patients
or services between potential referral                     sponsors for the provision of emergency                 purported coverage for the ambulance
sources should be fair market value in                     medical services may raise anti-                        supplier’s services only, and free goods
an arm’s-length transaction not taking                     kickback concerns. Ambulance                            and services. Ambulance suppliers may
into account the volume or value of                        suppliers should not offer anything of                  waive copayments based on good faith
existing or potential referrals. For each                  value to cities or other EMS sponsors in                individualized assessments of financial
arrangement, ambulance suppliers                           order to secure an EMS contract, nor                    need, so long as the availability of
should carefully and accurately                            should they condition an EMS contract                   financial hardship waivers is not
document how fair market value is                          on obtaining non-EMS ambulance                          advertised.27
determined (e.g., by market                                business.24 While cities and other EMS                  V. Conclusion
comparables, open competitive bidding,                     sponsors may charge ambulance
cost basis, etc.). Discounts should be                                                                                This ambulance compliance risk
                                                           suppliers amounts to cover the costs of
accurately reflected and appropriately                                                                             guidance is intended as a resource for
                                                           services provided to the suppliers, they
disclosed on all claims and cost reports                                                                           ambulance suppliers to decrease the
                                                           should not solicit inflated payments in
filed with the Federal health care                                                                                 incidence of errors, fraud and abuse that
                                                           exchange for access to EMS patients,
programs, and accurate and complete                                                                                occur due to, among other factors, lack
                                                           including access to dispatch services
records should be kept of all discount                                                                             of knowledge, inadequate training and
                                                           under ‘‘9–1–1’’ or comparable systems.
arrangements. Ambulance suppliers                                                                                  inadvertent noncompliance. The
should consult the safe harbor for                         2. Arrangements With Other Responders                   Government has increased its scrutiny
discounts (42 CFR 1001.952(h)) when                           It many situations, it is common                     of the health care industry in part in an
entering into discount arrangements.                       practice for a paramedic intercept or                   effort to decrease errors and/or
                                                           other first responder to treat a patient in             fraudulent and abusive practices.
   Another good rule of thumb is that                                                                              Similarly, we encourage ambulance
ambulance suppliers should exercise                        the field, with a second responder
                                                           transporting the patient to the hospital.               suppliers to scrutinize their internal
caution when selling services to                                                                                   practices via their compliance efforts.
purchasers who are also in a position to                   In some cases, the first responder is in
                                                           a position to influence the selection of                   Compliance programs should reflect
generate Federal health care program                                                                               each ambulance supplier’s individual
business for the ambulance supplier                        the transporting entity. While fair
                                                           market value payments for services                      and unique circumstances. It has been
(e.g., skilled nursing facilities that                                                                             the OIG’s experience that those health
purchase ambulance services for private                    actually provided by the first responder
                                                           are appropriate, inflated payments by                   care providers that have developed
pay and Part A patients, but refer Part                                                                            compliance programs not only better
B and Medicaid patients to the                             ambulance suppliers to generate
                                                           business are prohibited, and the                        understand applicable Federal health
ambulance supplier). Any link or                                                                                   care program requirements, but also
connection between the price offered to                    Government will scrutinize such
                                                           payments to ensure that they are not                    better understand their internal
the seller and referrals of Federal                                                                                operations. We are hopeful that this
program business will implicate the                        disguised payments to generate calls to
                                                           the transporting entity.                                guidance will be a valuable tool in the
anti-kickback statute. In other words,                                                                             development and continuation of
ambulance suppliers should not offer                       3. Arrangements With Hospitals and                      ambulance suppliers’ compliance
purchasers with Federal health care                        Nursing Facilities                                      programs.
program business a price that is lower                        Because hospitals and nursing
than the price they would charge a                                                                                 Appendix A—Additional Risk Areas
                                                           facilities are key sources of non-
purchaser with a comparable volume of                      emergency ambulance business,                           1. ‘‘No Transport’’ Calls and Pronouncement
business and no Federal health care                                                                                of Death
                                                           ambulance suppliers need to take
program referrals.                                         particular care when entering into                         If an ambulance supplier responds to an
   A third good rule of thumb is that an                                                                           emergency call, but no transportation of a
                                                           arrangements with such institutions.                    patient is subsequently required due to the
ambulance supplier should not offer or                     (See, in particular, the second rule of
provide gifts, free items or services, or                  thumb described above.)                                 incentives to promote the delivery of preventive
other incentives of greater than nominal                                                                           care services, and health plan differentials in
value to referral sources and should not                   4. Arrangements With Patients
                                                                                                                   copayments. In addition, items or services of
accept such gifts and benefits from                           Arrangements that offer patients                     nominal value (less than $10 per item or service or
parties soliciting referrals from the                      incentives to select particular                         $50 in the aggregate annually) and any payment
                                                                                                                   that fits into an anti-kickback safe harbor are
ambulance supplier. In general, token                      ambulance suppliers may violate the                     permitted.
gifts used on an occasional basis to                       anti-kickback statute, as well as the                      26 See Special Fraud Alert: Routine Waiver of

demonstrate good will or appreciation                      CMP law prohibition against giving                      Copayments or Deductibles Under Medicare Part B,
(e.g., logo key chains, mugs or pens) will                 inducements to Medicare and Medicaid                    59 FR 65372, 65374 (1994) contained on the OIG
                                                                                                                   web page at http://oig.hhs.gov/frdalrt/index.htm).
be considered to be nominal in value.                      beneficiaries.25 Potentially prohibited                    27 Under a special rule, ambulance suppliers

G. Are There Particular Arrangements to                                                                            owned and operated by a State or a political
                                                             24 In general, ambulance suppliers may offer cities
                                                                                                                   subdivision of a State, such as a municipality or a
which Ambulance Suppliers Should be                        or other municipal entities free or reduced cost        fire district, may waive Medicare copayments for
Alert?                                                     services for uninsured, indigent patients.              residents. See CMS Carrier Manual section 2309.4;
                                                             25 The CMP law prohibits giving anything of           CMS Intermediary Manual section 3153.3A. This
  Ambulance suppliers should review                        value to a Medicare or Medicaid beneficiary that the    rule does not apply to private ambulance suppliers
the following arrangements with                            giver knows, or should know, is likely to influence     providing services under contract. However, States
particular care: 23                                        the beneficiary to choose a particular practitioner,    and political subdivisions of States may pay
                                                           provider, or supplier of items or services payable      uncollected, out-of-pocket copayments on behalf of
                                                           by Medicare or Medicaid. (See section 1128A(a)(5)       residents. Such payments may be made through
   23 This list of arrangements is intended to be          of the Social Security Act (42 U.S.C 1320a–7a(a)(5)).   lump sum or periodic payments, if the aggregate
illustrative, not exhaustive, of potential areas of risk   The statute contains several narrow exceptions,         payments reasonably approximate the otherwise
under the anti-kickback statute.                           including financial hardship copayment waivers,         uncollected copayment amounts.
                              Federal Register / Vol. 67, No. 109 / Thursday, June 6, 2002 / Notices                                               39025

patient’s death or patient’s refusal to be            exclusion by the OIG.29 This exclusion                    Other (please specify)
transported, there are three Medicare rules           authority is not implicated unless the                 —HHS Department or program being affected
that apply. If an individual is pronounced            supplier’s charge for Medicare or Medicaid                  by your allegation of fraud, waste, abuse/
dead prior to the time the ambulance was              patients is substantially more than its median              mismanagement:
requested, there is no payment. If the                non-Medicare/Medicaid charge. A supplier                  Centers for Medicare and Medicaid
individual is pronounced dead after the               should identify as a risk area its billing                  Services (formerly Health Care Financing
ambulance has been requested, but before              practices if it is discounting close to half of             Administration)
any services are rendered, a BLS payment              its non-Medicare/Medicaid business. Thus,                 Indian Health Service
will be made and no mileage will be paid.             ambulance suppliers should review charging                Other (please specify)
If the individual is pronounced dead after            practices with respect to Medicare and                 —Please provide the following information
being loaded into the ambulance, the same             Medicaid billing to ensure that they are not                (however, if you would like your referral
payment rules apply as if the beneficiary             charging Medicare or Medicaid substantially                 to be submitted anonymously, please
were alive. Ambulance suppliers should                more than they usually charge other                         indicate such in your correspondence or
accurately represent the time of death and            customers.                                                  phone call):
request payment based on the                          Appendix B—OIG–HHS Contact                                Your Name 

aforementioned criteria.                                                                                        Your Street Address 

                                                      Information
                                                                                                                Your City/County 

2. Multiple Patient Transports                           The OIG’s web site (www.oig.hhs.gov)                   Your State 

   On occasion, it may be necessary for an            contains various links describing the                     Your Zip Code 

ambulance to transport multiple patients              following: (1) The OIG’s four different                   Your E-mail Address 

concurrently. If more than one patient is             components (Audit Services, Investigations,            —Subject/Person/Business/Department that
transported concurrently in one ambulance,            Evaluations and Inspections, Counsel to the            allegation is against:
the amount billed should be consistent with           IG); (2) External Information such as how to              Name of Subject
the multiple transport guidelines established         subscribe to the OIG’s mailing list and OIG’s             Title of Subject
by the carrier in that region. Under CMS’s            Hearing Testimony; (3) Compliance Tools                   Subject’s Street Address
new ambulance fee schedule rules for                  that include a list of the OIG’s Compliance               Subject’s City/County
multiple transports, Medicare will pay a              Guidance, Corporate Integrity Agreements,                 Subject’s State
percentage of the payment allowance for the           and Self-Disclosure Information; (4) Fraud                Subject’s Zip Code
base rate applicable to the level of care             Detection and Prevention efforts including             —Please provide a brief summary of your
furnished to the Medicare beneficiary (e.g., if       anti-kickback information, Advisory                    allegation and the relevant facts.
two patients are transported simultaneously,          Opinions, and Fraud Alerts & Bulletins; and
75 percent of the applicable base rate will be        (5) Reports and Publications. Such                     Appendix C—Carrier Contact
reimbursed for each of the Medicare                   information is frequently updated and is a             Information
beneficiaries). Coinsurance and deductible            useful tool for ambulance providers seeking
                                                      additional OIG resources.                              1. Medicare
amounts will apply to the prorated amounts.
                                                         Also listed on the OIG’s web site is the OIG           A complete list of contact information
3. Multiple Ambulances Called to Respond              Hotline Number. One method for providers               (address, phone number, e-mail address) for
to Emergency Call                                     to report potential fraud, waste and abuse             Medicare Part A Fiscal Intermediaries,
   On occasion, more than one ambulance               problems is to contact the OIG Hotline                 Medicare Part B Carriers, Regional Home
supplier responds to an emergency call and            number. All HHS and contractor employees               Health Intermediaries, and Durable Medical
is present to transport a beneficiary. These          have a responsibility to assist in combating           Equipment Regional Carriers can be found on
are often referred to as ‘‘dual transports.’’ In      fraud, waste, and abuse in all departmental            the CMS web site at www.hcfa.gov/medicare/
such cases, only the transporting ambulance           programs. As such, providers are encouraged            incardir.htm.
supplier may bill Medicare for the service            to report matters involving fraud, waste and
                                                      mismanagement in any departmental                      2. Medicaid
provided. The non-transporting ambulance
company should receive payment directly               program to the OIG. The OIG maintains a                   Contact information (address, phone
from the transporting supplier based on a             hotline that offers a confidential means for           number, e-mail address) for each State
negotiated arrangement if that company’s              reporting these matters.                               Medicaid director can be found on the CMS
ambulance crew had provided services to the           Contacting the OIG Hotline                             web site at www.hcfa.gov/medicaid/
patient, but had not actually transported the                                                                mcontact.htm. In addition to a list of State
                                                      By Phone: 1–800–HHS–TIPS (1–800–447–                   Medicaid directors, the web site includes
patient to a treatment facility.28 On occasion,          8477)
when multiple ambulance crews respond to                                                                     contact information for each State survey
                                                      By Fax: 1–800–223–8164                                 agency and the CMS Regional Offices.
a call, a BLS ambulance may have provided             By E-Mail: Htips@os.dhhs.gov
the transport, but the level of services              By TTY: 1–800–377–4950                                 3. Ambulance Fee Schedule
provided may have been at the ALS level. If           By Mail: Office of Inspector General,                     Information related to the development of
a BLS supplier is billing at the ALS level               Department of Health and Human Services,            the ambulance fee schedule is located at
because of the services furnished by an                  Attn: HOTLINE, 330 Independence Ave.,               www.hcfa.gov/medicare/ambmain.htm.
additional ALS crew member, appropriate                  SW, Washington, DC 20201
documentation should accompany the claim                 When contacting the hotline, please                 Appendix D—Internet Resources
to indicate to the carrier that dual                  provide the following information to the best
transportation was provided. In any event,                                                                   1. Office Of Inspector General
                                                      of your ability:                                       (www.oig.hhs.gov)
only one supplier may submit the claim for
                                                      —Type of Complaint:
payment.                                                                                                        This web site includes a variety of
                                                         Medicare Part A
                                                                                                             information relating to Federal health care
4. Billing Medicare ‘‘Substantially in Excess’’          Medicare Part B
                                                                                                             programs, including the following:
of Usual Charges                                         Indian Health Service
   Ambulance suppliers generally may not                 TRICARE                                             Components
charge Medicare or Medicaid patients                                                                           • Audit Services
substantially more than they usually charge             29 The OIG may exclude from participation in the
                                                                                                               • Investigations
everyone else. If they do, they are subject to        Federal health care programs any provider that           • Evaluation and Inspections
                                                      submits or causes to be submitted bills or requests
                                                      for payment (based on charges or costs) under
                                                                                                               • Counsel to the IG
  28 These payments should be fair market value for   Medicare or Medicaid that are substantially in           • Management and Policy
services actually rendered by the non-transporting    excess of such providers’ usual charges or costs,      Compliance Tools
supplier, and the parties should review these         unless the Secretary finds good cause for such bills
payment arrangements for compliance with the          or requests. See section 1128(b)(6) of the Social        • Compliance Guidance
anti-kickback statute.                                Security Act (42 U.S.C. 1320a–7(b)(6)).                  • Corporate Integrity Agreements
39026                     Federal Register / Vol. 67, No. 109 / Thursday, June 6, 2002 / Notices

  • Self-Disclosure Information              DEPARTMENT OF HEALTH AND                       6,081 respondents in FY 2003, 6081
Press Information                            HUMAN SERVICES                                 respondents in FY 2004 and 6081
                                                                                            respondents in FY 2005. Estimated
  • Subscribe to Mailing List                National Institutes of Health                  Number of Responses per Respondent: 1
  • OIG News
                                                                                            in FY 2003, 1 in FY 2004, and 1 in FY
  • Hearing Testimony                        Proposed Collection; Comment                   2005. Average Burden Hours Per
Fraud Detection and Prevention               Request; Partner and Customer                  Response: 0.33. Estimated Total Annual
                                             Satisfaction Surveys
  • Anti-Kickback Information                                                               Burden Hours Requested: 2007 in FY
  • Advisory Opinion                           SUMMARY: In compliance with the              2003, 2007 in FY 2004 and 2007 in FY
  • Fraud Alerts and Bulletins                 requirement of Section 3506(c)(2)(A) of      2005. Costs for time were estimated
Reports and Publications                       the Paperwork Reduction Act of 1995,         using the rate of $38.00 per hour for
                                               for opportunity for public comment on        SRG members, SRG chairs, and
   • Audit Reports                             proposed data collection projects, the       principal investigators/grant applicants.
   • Evaluation Reports                        Center for Scientific Review (CSR), the      The estimated annual cost each year for
   • Semi-Annual Reports
                                               National Institutes of Health (NIH) will     which the generic clearance is requested
   • Orange Book
                                               publish periodic summaries of proposed       is $76,266 for FY 2003, $76,266 for FY
   • Red Book
                                               projects to be submitted to the Office of    2004 and $76,266 for FY 2005.
   • Work Plan
   • Regulations and Federal Register Notices
                                               Management and Budget (OMB) for              Respondents or recordkeepers should
                                               review and approval.                         incur no additional costs.
2. Centers for Medicare and Medicaid             Proposed Collection: Title: partner
Services (www.hcfa.gov)                                                                        Request for Comments: Written
                                               and Customer Satisfaction Surveys.
                                                                                            comments and/or suggestions from the
   This web site includes information on a     Type of Information Collection Request:
                                                                                            public and affected agencies should
wide array of topics, including the following: Revision OMB #0925–0474; expires
                                                                                            address one or more of the following
                                               September 30, 2002. Need and Use of
a. Medicare
                                               Information Collection: The information      points: (1) Evaluate whether the
   • National Correct Coding Initiative        collection in these surveys will be used     proposed collection of information is
   • Intermediary-Carrier Directory            by Center for Scientific Review              necessary for the proper performance of
   • Payment                                   personnel: (1) To assess the quality of      the function of the agency, including
   • Program Manuals                           operations and processes used by CSR         whether the information will have
   • Program Transmittals and Memorandum to review grant applications; (2) to               practical utility; (2) Evaluate the
   • Provider Billing/CMS Forms                                                             accuracy of the agency’s estimate of the
                                               assess the quality of service provided to
   • Statistics and Data                                                                    burden of the proposed collection of
                                               our partners and customers; (3) to assist
b. Medicaid CMS Regional Offices               with the design of modifications of          information, including the validity of
                                               these operations, processes and services,    the methodology and assumptions used;
   • Letters to State Medicaid Directors
   • Medicaid Hotline Numbers                  based on partner and customer input;         (3) Enhance the quality, utility, and
   • Policy and Program Information            (4) to develop new modes of operation        clarity of the information to be
   • State Medicaid Contacts                   based on partner and customer need;          collected; and (4) Minimize the burden
   • State Medicaid Manual                     and (5) to obtain partner and customer       of the collection of information on those
   • State Survey Agencies                     feedback about the efficacy of               who are to respond, including the use
   • Statistics and Data                       implemented modifications. These             of appropriate automated, electronic,
                                               surveys will almost certainly lead to        mechanical, or other technological
3. CMS Medicare Training (www.hcfa.gov/
learning)                                      quality improvement activities that will     collection techniques or other forms of
                                               enhance and/or streamline CSR’s              information technology.
   This web site provides computer-based
                                               operations. The major mechanism by           FOR FURTHER INFORMATION CONTACT: To
training on the following topics:
                                               which CSR will request input is through
   • CMS 1500 Form                                                                          request more information on the
   • Fraud and Abuse
                                               surveys. The survey for partners is
                                                                                            proposed project or to obtain a copy of
   • ICD–9–CM Diagnosis Coding                 generic and tailored for Scientific
                                                                                            the data collection plans and
   • Medicare Secondary Payer                  Review Group (SRG) past and present
                                                                                            instruments, contact: Karl Malik, Ph.D.,
   • Introduction to the World of Medicare     members and chairs. The survey for
                                                                                            Office of the Director, Center for
   • CMS 1450 (UB92)                           customers (i.e., grant applicants) will
                                               have slight variations determined by         Scientific Review, National Institutes of
4. Government Printing Office                  which category of scientific review          Health, 6701 Rockledge Drive,
(www.access.gpo.gov)
                                               group the researcher/investigator’s grant    Rockledge II, Rm. 3016, Bethesda, MD
   This web site provides access to Federal    application is reviewed. Surveys will be     20892–7814, or call non-toll free: 301–
statutes and regulations pertaining to Federal collected as written documents or via        435–1114, or E-mail your request,
health care programs.                          the Internet. Information gathered from      including your address to:
                                               these surveys will be presented to, and      malikk@csr.nih.gov.
5. The U.S. House of Representatives
Internet Library (http://.uscode.house.gov/    used directly by, CSR management to            Comments Due Date: Comments
usc.htm)                                       enhance the operations, processes, and       regarding this information collection are
   This web site provides access to the United services of our organization. Frequency      best assured of having their full effect if
States Code, which contains laws pertaining    of Response: Yearly. Affected Public:        received on or before August 5, 2002.
to Federal health care programs.               Universities, not-for-profit institutions,     Dated: May 30, 2002.
   Dated: May 20, 2002.                        business or other for-profit, small
                                               businesses and organizations, and            John Czajkowski,
Janet Rehnquist,
                                               individuals. Type of Respondents: Adult      Acting Executive Officer, Center for Scientific
Inspector General.                                                                          Review, NIH.
                                               scientific professionals. The annual
[FR Doc. 02–14163 Filed 6–5–02; 8:45 am]       reporting burden is as follows:              [FR Doc. 02–14118 Filed 6–5–02; 8:45 am]
BILLING CODE 4152–01–P                         Estimated Number of Respondents:             BILLING CODE 4140–01–M
